TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        The Internal Revenue Service
                           Can Make Better Use of
                    Defense Contract Audit Agency Reports



                                      September 14, 2010

                              Reference Number: 2010-10-115




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                        However, the IRS can make better use of
CAN MAKE BETTER USE OF DEFENSE                      the findings included in the DCAA reports.
CONTRACT AUDIT AGENCY REPORTS                       These reports often identify system and/or
                                                    internal control weaknesses for the
                                                    contractor that increase the risk of contractor
Highlights                                          overbilling. The reports should be more
                                                    widely distributed to assist contracting
                                                    officers in determining whether additional
Final Report issued on September 14,
                                                    monitoring of contractor invoices is
2010                                                necessary to ensure the Federal
                                                    Government is being billed appropriately.
Highlights of Reference Number: 2010-10-115
to the Internal Revenue Service Deputy              In addition, TIGTA identified $355,507 in
Commissioner for Operations Support.                questioned costs that the IRS reported as being
                                                    disallowed and the contractor should repay, but
IMPACT ON TAXPAYERS                                 TIGTA could not find documentation showing
Defense Contract Audit Agency (DCAA) audit          the money was actually repaid to the IRS. This
services are intended to be a key control to help   occurred because the IRS reports corrective
assure prices paid by the Federal Government        actions as closed when the contractor agrees to
for goods and services are fair and reasonable,     repay the questionable charges and not when
and that contractors bill the Federal               the money is actually received by the IRS.
Government in accordance with applicable            WHAT TIGTA RECOMMENDED
laws, cost accounting standards, and contract
terms. The Internal Revenue Service (IRS) is        TIGTA recommended that the Director,
not using the DCAA reports to implement             Procurement, establish a policy that DCAA
additional controls to monitor contractor billing   reports be distributed to all appropriate
and/or considering deficiencies when awarding       procurement staff emphasizing the importance
new task orders. In addition, the IRS is not        of DCAA audit reports and requiring contracting
ensuring that overbilled costs are repaid by the    officers to evaluate the deficiencies identified.
contractor. As a result, the IRS may not always     The Director, Procurement, should also
have assurance that the Federal Government is       establish a training program to provide an
paying the correct amounts for goods and            understanding of the contracting officers’
services.                                           responsibility to use the DCAA audit results in
                                                    providing proper contract administration. In
WHY TIGTA DID THE AUDIT                             addition, the Director, Procurement, should
This audit was conducted as part of TIGTA’s         change the corrective action reporting process
Fiscal Year 2010 Annual Audit Plan and              to ensure that all agreed-to questionable
addresses the major management challenge of         charges are repaid before the corrective action
Erroneous and Improper Payments and Credits.        is closed and ensure that contracting officers
The overall objective of this review was to         recover the questioned costs TIGTA identified in
determine whether the IRS requested DCAA            this audit that were not repaid by the
contract audit services when needed (required       contractors.
by law or needed to manage contracts) and           The IRS agreed with the recommendations and
whether the IRS used DCAA audit results             plans to take appropriate corrective actions.
appropriately when awarding and administering
contracts.
WHAT TIGTA FOUND
The IRS is requesting DCAA contract audit
services when needed and documenting
determinations of fair and reasonable prices.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 14, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Can Make Better
                             Use of Defense Contract Audit Agency Reports (Audit # 201010006)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) use of
 Defense Contract Audit Agency audit services. The overall objective of this review was to
 determine whether the IRS requested Defense Contract Audit Agency contract audit services
 when needed (required by law or needed to manage contracts) and whether the IRS used Defense
 Contract Audit Agency audit results appropriately when awarding and administering contracts.
 This audit was conducted as part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
 Erroneous and Improper Payments and Credits.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                                 The Internal Revenue Service
                                                    Can Make Better Use of
                                            Defense Contract Audit Agency Reports




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Corrective Actions Are Not Always Taken on Deficiencies Identified in
          Defense Contract Audit Agency Reports ...................................................... Page 5
                    Recommendation 1:.......................................................... Page 6

                    Recommendation 2: .................................................................... Page 7

          Corrective Actions Were Closed Before Ensuring Questionable
          Charges Were Recovered .............................................................................. Page 7
                    Recommendations 3 and 4: ................................................ Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measures............................................................... Page 14
          Appendix V – Management’s Response to the Draft Report ....................... Page 15
              The Internal Revenue Service
                 Can Make Better Use of
         Defense Contract Audit Agency Reports




              Abbreviations

DCAA    Defense Contract Audit Agency
IRS     Internal Revenue Service
JAMES   Joint Audit Management Enterprise System
TIGTA   Treasury Inspector General for Tax Administration
                                          The Internal Revenue Service
                                             Can Make Better Use of
                                     Defense Contract Audit Agency Reports




                                              Background

The Federal Acquisition Regulation1 stipulates that the
Defense Contract Audit Agency (DCAA) is normally               Contract audits provide financial
                                                                      information; advice on
the responsible Federal Government agency for contract               contractual matters; and
audit services. Contract audits provide Federal                  opinions on the effectiveness,
Government procurement personnel financial                       efficiency, and economy of the
information; advice on contractual matters; and opinions             contractor’s operations.
on the effectiveness, efficiency, and economy of the
contractor’s operations. DCAA contract audit services
are intended to be a key control to help assure prices paid by the Federal Government for goods
and services are fair and reasonable, and that contractors bill the Federal Government in
accordance with applicable laws, cost accounting standards,2 and contract terms.
The DCAA performs many different types of contract audits. The four principle types are:
    •    Pre-negotiation audits. These audits assist contracting officers in reviewing a
         contractor’s proposed costs before the contract is awarded. The Internal Revenue Service
         (IRS) requests these audits to assist cost and pricing analysts and contracting officers in
         determining fair and reasonable prices.
    •    Incurred cost3 audits. The primary objective of incurred cost audits is to examine the
         contractor’s costs and determine whether the costs are reasonable and applicable to the
         contract. The IRS requests these audits before the contract is closed out to establish
         actual indirect cost rates and to ensure all costs paid to the contractor are appropriate.
    •    Contract cost and pricing data4 audits. These audits include determining whether the
         contract price was increased by a significant amount because the contractor did not
         submit or disclose accurate, complete, and current cost and pricing data.
    •    Cost accounting standard audits. The purpose of these audits is to determine whether a
         contractor complied with cost accounting standards and has consistently followed
         disclosed cost accounting practices.


1
  48 C.F.R. ch. 1.
2
  Cost accounting standards are a series of accounting standards issued to achieve uniformity and consistency in
measuring, assigning, and allocating costs to Federal Government contracts.
3
  Incurred cost is a cost identified through the use of an accounting method in which revenue is recorded when
earned and costs are recorded when made.
4
  Cost and pricing data are all facts that can be reasonably expected to contribute to the soundness of estimates of
future costs and to the validity of determinations of costs already incurred.
                                                                                                               Page 1
                                        The Internal Revenue Service
                                           Can Make Better Use of
                                   Defense Contract Audit Agency Reports



The IRS uses the DCAA to perform audits of its cost-reimbursement contracts. These contracts
are considered high risk because the Federal Government does not contract for performance of a
specified amount of work for a predetermined price, but instead agrees to pay the contractor’s
reasonable cost of performance whether or not the work is completed. As a result, the Federal
Government has a high risk of incurring cost overruns and there is little incentive for the
contractor to control costs.
The IRS most commonly requests incurred cost audits. These audits test the allowability of
invoiced costs submitted by contractors for reimbursement under the contract. In most cases, the
cost being reviewed will have already been paid to the contractor during the performance of the
contract under interim payment5 procedures. The invoices submitted during the contract often
include an estimated indirect cost6 rate based on historical data. The Federal Acquisition
Regulation requires final indirect cost rates be established before the end of each contract, which
is done during the incurred cost audits. Federal agencies make cost adjustments with the
contractor during contract closeout based on the final indirect cost rates. In addition, as part of
the incurred cost audits, the DCAA determines whether the contractor’s accounting system is
adequate to ensure costs and other financial information are reliable.
The Treasury Inspector General for Tax Administration (TIGTA) has established an agreement
with the DCAA to perform contract audit services for IRS contracts. The TIGTA is responsible
for coordinating these services between the IRS and the DCAA. The Cost and Pricing Branch
within the Office of Procurement is responsible for the DCAA program within the IRS and
coordinates with the TIGTA to request the appropriate contract audits and ensure the DCAA is
paid appropriately for the services provided. Specifically:
    •   The Cost and Pricing Branch is responsible for addressing audit recommendations that
        are included in the audit reports, assisting with and clarifying audit results for the
        contracting officer, and reviewing price negotiation memoranda to verify resolution of
        issues raised in audit reports.
    •   Contracting officers are responsible for addressing all DCAA audit recommendations,
        where applicable, in price negotiation memoranda with the contractors.
As of March 2010, the Office of Procurement was administering 839 contracts (including
purchase agreements and interagency agreements). These 839 contracts have a value of
approximately $48 billion over the life of the contracts. Thirty-five of the 839 contracts are
cost-reimbursement contracts with a value of approximately $17 billion over the life of the
contracts.



5
  Interim payments are periodic payments made by the Federal Government to a contractor during the performance
of a cost-reimbursement contract.
6
  Indirect costs are any costs not directly identified with a single cost objective.
                                                                                                        Page 2
                                    The Internal Revenue Service
                                       Can Make Better Use of
                               Defense Contract Audit Agency Reports



This review was performed at the Office of Procurement in Oxon Hill, Maryland, during the
period January through June 2010. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                                         The Internal Revenue Service
                                            Can Make Better Use of
                                    Defense Contract Audit Agency Reports




                                      Results of Review

The IRS Office of Procurement is requesting DCAA contract audit services when needed and
documenting determinations of fair and reasonable prices. However, the IRS can make better
use of the findings included in DCAA reports. These reports often identify system and/or
internal control weaknesses for the contractor that increase the risk of the contractor overbilling
the Federal Government. Because the reports are on various aspects of the contractor’s financial
systems and controls, the reports should be more widely distributed to other contracting officers.
This would enable all contracting officers responsible for contracts and task orders for the same
contractors to be aware of issues identified during DCAA audits. Contracting officers can then
implement additional controls to monitor contractor billing and/or consider the deficiencies when
awarding new task orders. Additional controls could prevent potential overpayment to the
contractor and the loss of taxpayer funds.
Issues identified in Government Accountability Office reports7 regarding the DCAA have
hindered the IRS in getting all the needed audits completed, especially incurred cost audits. The
Office of Procurement Cost and Pricing Branch has been working closely with the DCAA
stressing the importance of these audits; however, the DCAA has been unable to conduct all the
necessary incurred cost audits. This has had a severe impact on the IRS’ ability to close out
contracts and task orders. If contracts and task orders can not be closed out within 5 years after
the contract expires, the IRS loses the ability to use any funds recovered for other tax
administration needs.
In addition, DCAA audit reports include costs the DCAA believes are questionable, and the
TIGTA recommends that contracting officers consider recovering these costs. We found that
while the IRS did work with the contractors to recover some of the questionable costs, the IRS
could not provide us with documentation showing that $355,507 of the disallowed8 amount was
actually repaid to the IRS.
By not ensuring all appropriate contracting officers receive and follow up on DCAA reports and
questioned costs are actually repaid, the IRS may not always have assurance that contractors are
not overbilling the Federal Government for goods and services.




7
  DCAA Audits: Widespread Problems with Audit Quality Require Significant Reform (GAO-09-468, dated
September 2009) and DCAA Audits: Allegations That Certain Audits at Three Locations Did Not Meet Professional
Standards Were Substantiated (GAO-08-857, dated July 2008).
8
  A disallowed cost is a cost that the Federal Government refuses to recognize as a cost that should be paid to the
contractor.
                                                                                                           Page 4
                                        The Internal Revenue Service
                                           Can Make Better Use of
                                   Defense Contract Audit Agency Reports



Corrective Actions Are Not Always Taken on Deficiencies Identified in
Defense Contract Audit Agency Reports
The IRS requests DCAA contract audits to assist contracting officers with awarding and
administering cost-reimbursement contracts. We interviewed 16 contracting officers responsible
for cost-reimbursement contracts. Eight of the 16 (50 percent) contracting officers indicated they
did not regularly receive DCAA reports. As a result, the contracting officers were not aware of
the contractors who may need additional monitoring of their monthly invoices. During
Fiscal Years 2008 and 2009, the DCAA reported deficiencies with 18 IRS contractors or
sub-contractors. These deficiencies included inadequate accounting systems, noncompliance
with Federal Government regulations and standards, and inappropriate costs. If DCAA reports
were more widely distributed, contracting officers could use the results of DCAA audits to
ensure contractors are properly billing the IRS and future contract actions include the appropriate
pricing.
DCAA audit reports are received and distributed to the contracting officer responsible for the
contract by a business operations specialist in the Procurement Policy and Procedures Branch.
The reports are also provided to cost and pricing analysts in procurement operations9 responsible
for providing cost and pricing analysis services for specific Office of Procurement branches.
These cost and pricing analysts review DCAA reports and use the results of the audits when
preparing cost and pricing reports to assist contracting officers in determining price
reasonableness.
DCAA audit reports include important information on deficiencies that may affect contractor
billing that would assist contracting officers in properly monitoring their contracts. For instance,
the DCAA issued a report in Fiscal Year 2009 that found deficiencies with a contractor’s labor
practices that required corrective actions to improve the reliability of the contractor’s labor
accounting system. The DCAA reported that the deficiencies increased the risk of inaccurate
and improper labor charges to Federal Government contracts.
When deficiencies are identified during DCAA audits, contracting officers need to take actions
on the task orders that are assigned to them, including closer monitoring of other invoices
submitted by the same contractors. Each contracting officer should individually assess the
deficiency and evaluate the impact of the deficiency on the task orders assigned to him or her. If
the same contractor is involved in other task orders, there is a risk that the other invoices also
involve overbilling. The contracting officer should work with the contracting officer’s technical




9
 The Treasury Information Processing Support Services Program Branch has a cost and pricing analyst. The
Modernization Acquisitions Branch also has a cost and pricing analyst.
                                                                                                       Page 5
                                         The Internal Revenue Service
                                            Can Make Better Use of
                                    Defense Contract Audit Agency Reports



representatives10 in the business units to establish additional monitoring and verification of all the
applicable task order invoices to ensure all costs are appropriate.
The Office of Procurement has taken some actions when the DCAA has found deficiencies. For
instance, the DCAA found that a contractor’s accounting system is inadequate and suggested that
the IRS withhold 10 percent from the contractor’s invoices until the accounting system issues
have been resolved. The IRS is complying with this recommendation for all contracts and/or
task orders that this contractor has with the IRS. However, the IRS does not have the same
assurances for other contractors because DCAA reports are not being shared with all applicable
contracting officers.
While the IRS has established an internal control by having the DCAA perform contract audits,
the IRS did not always effectively use this internal control by strengthening the controls on all
applicable contracts when deficiencies were identified by the DCAA. Without strengthening this
internal control, the IRS runs the risk of overpaying contractors and wasting taxpayer funds after
being advised that the contractors have system and/or internal control weaknesses that affect
billing. If the contractors have other contracts and/or task orders with the IRS, the IRS should
ensure all of the contractors’ invoices are verified and corrected to ensure the Federal
Government is paying the appropriate amount for goods and services received.

Recommendations
Recommendation 1: The Director, Procurement, should establish a policy that DCAA
reports be distributed to all appropriate procurement staff, including all contracting officers
responsible for contracts and task orders for a contractor audited by the DCAA. This policy
should emphasize the importance of DCAA audit reports and should add a requirement that
contracting officers evaluate DCAA audit reports to determine whether additional controls need
to be implemented to monitor contract costs and ensure the IRS pays the correct amount of costs.
        Management’s Response: The IRS agreed with this recommendation and will revise
        procurement policy and procedure memorandum 15.4(A) to include a requirement for the
        cost and price analyst to distribute the audit report to procurement staff and contracting
        officers, when appropriate, to evaluate applicable audit reports to determine whether
        additional controls need to be implemented to monitor costs on contracts and task orders.
        In addition, DCAA audit reports will be posted on an IRS Procurement SharePoint site
        making them available to all appropriate procurement staff.



10
  A contracting officer’s technical representative is the principal program representative assigned to Federal
Government procurements and is responsible for providing technical direction, monitoring contract performance,
and ensuring that the Federal Government pays only for the services, materials, and travel authorized and delivered
under the contract.
                                                                                                            Page 6
                                          The Internal Revenue Service
                                             Can Make Better Use of
                                     Defense Contract Audit Agency Reports



Recommendation 2: The Director, Procurement, should establish a training program for
contracting officers and contracting officer’s technical representatives to provide an
understanding of the impact of DCAA audit results and their responsibility to use the results of
DCAA audits in providing proper contract administration.
           Management’s Response: The IRS agreed with this recommendation and will
           develop and conduct training outreach sessions for contracting officers. This training
           will be mandatory for contracting officers and contracting officer’s technical
           representatives employed in the Office of Procurement who are assigned to cost
           reimbursement contracts or task orders. Contracting officer’s technical representatives
           employed in other business units will be encouraged to attend the training sessions or
           review the training materials.

Corrective Actions Were Closed Before Ensuring Questionable
Charges Were Recovered
In 14 audit reports issued in Fiscal Years 2005 through 2009, the DCAA questioned
approximately $35.6 million of contractor payments. As of June 2010, the IRS reported that
approximately $1 million of this amount was disallowed, approximately $2 million of this
amount was resolved (not disallowed), and a decision has not been made on the remaining
questioned costs.
When questioned costs are identified in a DCAA report, the TIGTA reports the amount
questioned in the Department of the Treasury Joint Audit Management Enterprise System
(JAMES)11 in order to track the corrective actions taken by the IRS. The Cost and Pricing
Branch works with the appropriate contracting officer to determine whether the cost should be
disallowed and, if so, to ensure that the contractor repays the costs.
Once a decision has been made, the Office of Procurement reports on the JAMES the action it is
taking regarding the questionable charges. For Fiscal Years 2005 through 2009, the IRS reported
on the JAMES that it disallowed $966,423 of the questionable charges reported in DCAA audit
reports. Contracting officers provided us with documentation to show that $610,916 was
actually repaid to the IRS. However, contracting officers could not provide us with
documentation to support that the contractor repaid the IRS the remaining $355,507 (37 percent)
of these costs. For $245,116 of the $355,507, the cost and pricing analyst responsible for the
contract believed that the money was repaid by the contractor. However, the analyst could not
find documentation to support the recovery of the money and realized the contractor had not
repaid the questionable charges as of June 2010.




11
     The JAMES is a Department of the Treasury system used to track and report audit recommendations.
                                                                                                        Page 7
                                       The Internal Revenue Service
                                          Can Make Better Use of
                                  Defense Contract Audit Agency Reports



Discussions with a cost and pricing analyst indicated that corrective actions were closed on the
JAMES when the contractor agreed to repay the questionable charges and not when the
questionable charges are actually received by the IRS. The Office of Procurement closes
corrective actions before the money is recovered because some of the questionable charges will
not be repaid to the IRS until the contract or task order is completed and closed. This could take
years and, therefore, the action on the JAMES would remain outstanding throughout that time.
However, this practice allowed the situations we identified to occur without the IRS being aware
of them.
This issue was previously reported12 by the TIGTA in Fiscal Year 2008. During that review, we
identified 2 corrective actions that were closed when the contractor agreed to repay questionable
charges of approximately $41,000 without the IRS actually receiving the money. At the time of
that review, Procurement management agreed to change the JAMES reporting process and to
ensure all agreed-to questionable charges were recovered before the corrective action would be
closed. Because we identified additional problems after Fiscal Year 2008, we determined the
IRS did not implement this corrective action for all audit reports.
While JAMES actions may remain outstanding for several years, we continue to believe that
corrective actions should not be closed until the questionable charges are actually repaid by the
contractor. Obtaining agreement with the contractor regarding the questionable charges is the
first step. However, if the IRS does not continue to track the corrective action, it has no
assurance that the contractor will repay the money and make the IRS whole. As a result, the IRS
was not aware that $245,116 had not been repaid until we brought this to IRS management’s
attention.

Recommendations
Recommendation 3: The Director, Procurement, should change the JAMES reporting
process to ensure that all agreed-to questionable charges are repaid before the corrective actions
are closed on the JAMES.
        Management’s Response: The IRS agreed with this recommendation and has
        revised its JAMES reporting process to ensure that all agreed-to questionable charges are
        repaid and documented prior to corrective actions being closed in JAMES.
Recommendation 4: The Director, Procurement, should ensure that contracting officers
recover the questioned costs that we identified in this audit that should have been repaid by the
contractors but were not and update the JAMES with the questioned costs that were actually
received.


12
  Procurement’s Control Environment Was Ineffective and Did Not Prevent Overpayments to Contractors
(Reference Number 2008-10-092, dated March 28, 2008).
                                                                                                      Page 8
                           The Internal Revenue Service
                              Can Make Better Use of
                      Defense Contract Audit Agency Reports



Management’s Response: The IRS agreed with this recommendation and is
working with the contracting officers to recover the questioned costs identified in this
report. Once repayment documentation is received, the JAMES will be updated to reflect
the questioned costs that were actually received.




                                                                                 Page 9
                                   The Internal Revenue Service
                                      Can Make Better Use of
                              Defense Contract Audit Agency Reports



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS requested DCAA contract audit services
when needed (required by law or needed to manage contracts) and whether the IRS used DCAA
audit results appropriately when awarding and administering contracts. To accomplish this
objective, we:
I.     Determined whether the IRS requested DCAA contract audit services when needed to
       properly award and administer contracts.
       A. Selected a judgmental sample of 20 cost-reimbursement contracting actions of more
          than $500,000 on contracts active in Fiscal Years 2007 through 2009. The sample
          was selected from a universe of 1,013 cost-reimbursement contracting actions of
          more than $500,000 that were open in Fiscal Years 2007 through 2009. We selected
          a judgmental sample because we were not planning to project the results to the entire
          population. We reviewed the contract files for the 20 contracting actions, evaluated
          the method used to establish a fair and reasonable price, and determined whether
          DCAA contract audit services were requested when needed.
       B. Interviewed 16 contracting officers responsible for the 20 cost-reimbursement
          contracting actions selected for the sample in Step I.A. and determined their
          involvement with the DCAA contract audit services.
II.    Determined the Cost and Pricing Branch’s involvement in the DCAA contract audit
       services program and whether the proper oversight is being provided.
III.   Determined whether the IRS used DCAA reports to assist it in properly managing and
       administering contracts.
       A. Reviewed all DCAA audit reports issued in Fiscal Year 2005 through
          Fiscal Year 2009 and determined the questioned costs identified in the reports.
          1. Interviewed procurement personnel and determined decisions made regarding the
             questioned costs.
          2. Requested documentation from contracting officers regarding the questioned costs
             and ensured that the IRS actually received repayment for the questioned costs
             from the contractor.




                                                                                          Page 10
                                   The Internal Revenue Service
                                      Can Make Better Use of
                              Defense Contract Audit Agency Reports



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Office of Procurement policies and
procedures for the DCAA audit program and policies and procedures regarding contract
administration. We evaluated these controls by interviewing procurement personnel and
reviewing applicable documentation.




                                                                                        Page 11
                                 The Internal Revenue Service
                                    Can Make Better Use of
                            Defense Contract Audit Agency Reports



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Debra Kisler, Audit Manager
Robert Beel, Senior Auditor
Theresa Haley, Senior Auditor
Mary Herberger, Senior Auditor




                                                                                  Page 12
                                 The Internal Revenue Service
                                    Can Make Better Use of
                            Defense Contract Audit Agency Reports



                                                                    Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel
National Taxpayer Advocate
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Executive to the Director, Procurement OS:A:P




                                                                          Page 13
                                    The Internal Revenue Service
                                       Can Make Better Use of
                               Defense Contract Audit Agency Reports



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; $245,116 (see page 7).
•   Reliability of Information – Potential; $110,391 (see page 7).

Methodology Used to Measure the Reported Benefit:
The IRS reported to the JAMES that it disallowed $966,423 of the questionable charges included
in DCAA audit reports issued in Fiscal Years 2005 through 2009. However, contracting officers
could not provide us with documentation to show that $355,507 of these costs were actually
repaid by the contractor. For $245,116 of the $355,507, the cost and pricing analyst responsible
for the contract believed the money was repaid by the contractor. However, the analyst could not
find documentation to support the recovery of the money and realized the contractor did not
repay the amount. Therefore, the IRS incorrectly reported $245,116 as having been repaid. In
addition, we could not determine whether the IRS actually received $110,391 of these costs since
the contracting officer did not provide the documentation. Therefore, these costs are potentially
incorrect in the JAMES.




                                                                                          Page 14
                The Internal Revenue Service
                   Can Make Better Use of
           Defense Contract Audit Agency Reports



                                                   Appendix V

Management’s Response to the Draft Report




                                                        Page 15
     The Internal Revenue Service
        Can Make Better Use of
Defense Contract Audit Agency Reports




                                        Page 16
     The Internal Revenue Service
        Can Make Better Use of
Defense Contract Audit Agency Reports




                                        Page 17
     The Internal Revenue Service
        Can Make Better Use of
Defense Contract Audit Agency Reports




                                        Page 18
